                                                        IG-02-018




AUDIT
                             NASA OVERSIGHT OF UNITED SPACE
REPORT                     ALLIANCE’S SAFETY PROCEDURES AT THE
                              JOHN F. KENNEDY SPACE CENTER

                                        June 24, 2002




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Reader Survey
Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

GSE            Ground Support Equipment
PFA            Plastic Films, Foams, and Adhesive tapes
SFOC           Space Flight Operations Contract
SFOP           Safety Operating Procedure
SSP            Space Shuttle Program
SAA            System Assurance Analysis
TMR            Technical Management Representative
USA            United Space Alliance
                                             June 24, 2002
W


TO:              Distribution

FROM:            HQ/W/Assistant Inspector General for Audits

SUBJECT:         Final Report on Audit of NASA Oversight of United Space Alliance’s
                 Safety Procedures at the John F. Kennedy Space Center
                 Assignment Number A-00-041-02
                 Report Number IG-02-018 Redacted Report∗


The subject final report is provided for your information and use. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response is
incorporated into the body of the report. Although you nonconcurred with two of the
seven recommendations, we consider your planned corrective actions responsive to all of
the recommendations. Recommendations 2 and 6 are considered closed for reporting
purposes. For the remaining recommendations, please notify us when action has been
completed on them, including the extent of testing performed to ensure corrective actions
are effective. The final report distribution is in Appendix G.

We appreciate the courtesies extended to the audit staff. If you have questions concerning
the report, please contact Ms. Sandra Massey, Program Director, Safety and Technology
Audits, at (321) 867-4057, or Mr. Karl Allen, Audit Program Manager, at (202) 358-2595.



[original signed by]
Alan J. Lamoreaux

Enclosure

Distribution:
HQ/M/Associate Administrator for Space Flight
HQ/Q/Associate Administrator for Safety and Mission Assurance
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center


∗
 We have redacted portions of this report due to references to sensitive information. The redacted passages
do not affect the validity of this report or management’s response.
                                                      2

cc:
HQ/AI/Associate Deputy Administrator
HQ/B/Acting Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/JM/Director, Management Assessment Division
HQ/QS/Director, Safety and Risk Management Division
Contents
Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Shuttle Safety Responsibilities at Kennedy, 2

     Finding B. Safety of Shuttle Integrated Logistics, 6

     Finding C. Shuttle Ground Support Equipment Safety Analyses, 9

     Finding D. Safety Procedures for Payload Installation and
                Removal, 14

Appendix A – Objectives, Scope, and Methodology, 20

Appendix B – Summary of Prior Audit Coverage, 22

Appendix C – Safety Responsibilities Subdelegated to the Integrated
             Logistics Technical Management Representative, 24

Appendix D – Sample Results for Ground Support Equipment
             Undergoing Analysis, 25

Appendix E – Audit Trail of United Space Alliance Safety
             Procedures, 27

Appendix F – Management’s Response, 28

Appendix G – Report Distribution, 33
                            NASA Office of Inspector General
IG-02-018                                                                                June 24, 2002
 A-00-041-02

                           NASA Oversight of United Space
                           Alliance’s Safety Procedures at the
                            John F. Kennedy Space Center

                                      Executive Summary
Background. The Office of Inspector General has completed an audit1 of the United
Space Alliance’s (USA’s) safety procedures under NASA’s Space Flight Operations
Contract (SFOC).2 USA, a joint venture of The Boeing Company and Lockheed-Martin,
is one of five prime contractors supporting the Space Shuttle Program (SSP). USA is
responsible for the contracted tasks associated with the processing and flight preparation
of the Space Shuttle fleet. USA's work affects the safety of NASA's astronauts; the
Space Shuttle orbiters; and space flight personnel, hardware, and equipment. The Space
Shuttle Program Office located at the Lyndon B. Johnson Space Center (Johnson) is
responsible for managing the SFOC and the SSP. SSP operations occur primarily at
Johnson, the John F. Kennedy Space Center (Kennedy), and the George C. Marshall
Space Flight Center. We reviewed USA’s implementation of the SFOC safety
requirements for the SSP related to ground operations3 and integrated logistics4 at
Kennedy, as well as NASA’s oversight5 of USA's safety procedures.




1
  This audit was the third in a series of audits of USA’s safety procedures under the Space Flight
Operations Contract. In our report IG-01-034, “Controls Over the Use of Plastic Films, Foams, and
Adhesive Tapes In and Around the Space Shuttle Orbiter Vehicles,” dated August 31, 2001, we identified a
lack of control over the use of plastic films, foams, and adhesives tapes in and around the Space Shuttle
orbiter vehicles that created a potential safety hazard to personnel, the orbiter vehicles, and other flight
hardware and equipment. In report IG-01-017, “Space Shuttle Program Management Safety Observations,”
dated March 23, 2001, we identified weaknesses in NASA's management control structure for providing
oversight of USA’s safety operations under the SFOC. The results of both audits are summarized in
Appendix B of the report.
2
  NASA awarded the SFOC to USA of Houston, Texas, on September 26, 1996. The SFOC is a cost-plus-
award-fee/incentive fee/performance fee type contract and has a period of performance from
October 1, 1996, through September 30, 2002. The contract includes two, 2-year option periods, which
potentially extends the period of performance through September 30, 2006. As of March 8, 2002, the total
contract cost plus fee was estimated at $9.7 billion.
3
  Ground operations, one of the two major SFOC components located at Kennedy, consist of vehicle
integration, payload installation, launch preparation and execution, and post launch operations.
4
  Integrated logistics consist of operations such as spare parts, maintenance, and warehousing for the Space
Shuttle.
5
  The SFOC defines oversight as day-to-day management, review, and approval of USA’s operations.
Objectives. The overall audit objective was to evaluate USA’s safety procedures for
NASA's SFOC. The specific objectives related to this report were to determine whether:

    •    safety responsibilities between USA and NASA were clearly defined and

    •    NASA was performing effective oversight of USA’s safety program.6

Appendix A contains further details on the audit objectives, scope, and methodology.

Results of Audit. The safety responsibilities between USA and NASA were clear in that
NASA established all SSP safety requirements, USA implemented those requirements
through the SFOC, and NASA was fully responsible for the safe launch of the Shuttle.
However, Kennedy’s procedures for ensuring that USA properly implemented those
safety requirements were not the same procedures defined in the SFOC. The SFOC
states that NASA is to provide direct safety oversight of all USA operations.
Nevertheless, Kennedy did not provide direct safety oversight of USA’s ground
operations but rather obtained insight7 into USA’s safety operations through surveillance
and audits (Finding A). Further, Kennedy did not perform any level of safety oversight
for integrated logistics, a high-risk area for injuries and mishaps (Finding B).
Implementing a level of oversight that contradicts that required by the SFOC could lead
to lapses in safety oversight, increasing the risk of harming personnel and damaging
Space Shuttle hardware.

Although USA had developed a detailed safety management system8 to ensure
compliance with NASA requirements for the safety of NASA's astronauts; the Space
Shuttle orbiters; and space flight personnel, hardware, and equipment, we identified two
areas where USA can further improve safety. USA inappropriately used ground support
equipment (GSE) 9 at Kennedy prior to completing required analyses to ensure that all
hazards associated with the GSE were properly controlled (Finding C). Additionally,
there was no evidence that USA performed some critical, required safety procedures for a
specific operation at Kennedy involving payload removal from an orbiter vehicle
(Finding D). By using GSE prior to completion of the analyses and by not performing all
required safety procedures for payload removal, USA may have increased the risk of
harm to personnel and Shuttle hardware.

6
  We also addressed this objective in report IG-01-017, “Space Shuttle Program Management Safety
Observations,” March 23, 2001. In that audit, we evaluated the NASA SSP Program Office’s oversight of
the NASA-wide USA safety program. In this current audit, we evaluated Kennedy’s oversight of USA
safety for ground operations and integrated logistics at Kennedy.
7
  The SFOC defines insight as audit and surveillance of work to a level of detail that provides assurance of
satisfactory work accomplishment. The audits consist of the Kennedy Shuttle Safety Office’s review of
various USA safety operations to ensure that the operations are in compliance with SSP requirements. The
Kennedy Shuttle Safety Office performs about 13 audits each year. Some of the audit topics include
USA’s procedures for document control, use of plastic films, and mishap reporting.
8
  USA’s safety management system included a safety and health plan, detailed safety procedures, hazard
analyses, and mishap reporting and investigative procedures.
9
  GSE includes equipment used in ground operations to store, transport, handle, monitor, test, check out, service,
and communicate with and control aircraft, and to launch vehicles, payloads, and spacecraft.



                                                        ii
NASA has planned six Space Shuttle flights to assemble the International Space Station
from June 2002 through April 2003. Therefore, prompt management attention to all four
areas is particularly important to the safety and success of the SSP.

Recommendations. We recommended that NASA ensure that SFOC safety
requirements and Kennedy safety procedures are consistent. We also recommended that
NASA review USA processes for implementing SSP requirements related to the approval
and use of GSE in critical applications and ensure that USA’s safety procedures for future
payload installation and removal operations are properly implemented and documented.
Finally, we recommended that NASA require the Kennedy Shuttle Processing Directorate
and Shuttle Safety Office to improve procedures for ensuring that USA implements all
safety requirements associated with safety analyses and payload removals. The complete
text of management’s response is in Appendix F.

Management’s Response. NASA concurred with five of the seven recommendations
and has taken or planned corrective actions that we consider responsive. Although
NASA nonconcurred with two recommendations, it has planned corrective actions that
we consider responsive.




                                            iii
Introduction
As a prime contractor for NASA’s SSP, USA is responsible for many day-to-day
operations of the Space Shuttle fleet. USA's work affects the safety of NASA's
astronauts; the Space Shuttle orbiters; and space flight personnel, hardware, and
equipment. At Kennedy, USA’s specific responsibilities include Space Shuttle
modification, testing, checkout, and launch and landing activities. Management of the
SFOC at Kennedy is divided into two components that are separately managed by
Technical Management Representatives (TMR’s).10 The two components are:

     •   ground operations, which includes vehicle integration, payload installation,
         launch preparation and execution, and post launch operations.

     •   integrated logistics, which includes repairs, maintenance, spare parts,
         warehousing for the Space Shuttle orbiters, and associated GSE.

The SFOC Contracting Officer delegated the responsibility for safety oversight of USA
to the SSP Safety Manager11 who is located at Johnson. The SSP Safety Manager then
subdelegated safety tasks to the ground operations TMR. Those safety tasks consisted of
the preparation of a surveillance plan, insight into subcontractor safety operations, and
audits of contractor safety operations to ensure that USA implemented all SSP safety
requirements for ground operations. The SSP Safety Manager also attempted to
subdelegate the same safety tasks for integrated logistics to the integrated logistics TMR;
however, the integrated logistics TMR refused to accept the subdelegation.




10
   The SFOC Contracting Officer delegated specific technical responsibilities, including surveillance
responsibilities over USA to 13 TMR’s. The TMR’s are assigned to each major SSP component. The
major components are SSP business management, SSP systems integration, safety and mission assurance,
SSP management integration, avionics and software, flight crew operations, mission operations, Space
Shuttle vehicle engineering, Space Shuttle upgrades, Space Station Office at Johnson, Solid Rocket Booster
Project Office at the George C. Marshall Space Flight Center, and integrated logistics and ground
operations at Kennedy. As a result of our audit, SSP management combined the safety responsibilities for
both Kennedy operations under one TMR.
11
   NASA Space Transportation System 07700, Volume 1, paragraph 3.4.1.3, “Space Shuttle Program
Requirements,” designates the SSP Safety Manager as being responsible for managing Space Shuttle Safety
and Mission Assurance implementation and for oversight of all Safety and Mission Assurance activities in
support of the SSP. Paragraph 1 of the SFOC statement of work requires the contractor to follow the
requirements of the NASA Space Transportation System 07700.
Findings and Recommendations

Finding A. Shuttle Safety Responsibilities at Kennedy
Kennedy’s procedures to ensure that USA properly implemented SSP safety requirements
for ground operations and integrated logistics contradicted procedures defined in the
SFOC. Specifically, Kennedy performed surveillance and audits of USA’s safety
operations rather than day-to-day management, review, and approval of USA’s work.
This occurred because the SSP Safety Manager directed Kennedy to perform safety
procedures that differed from the SFOC requirements. Implementing a level of oversight
that contradicts that required by the SFOC could lead to lapses in safety oversight,
increasing the risk of harm to personnel and damage to Space Shuttle hardware.

SFOC Requirements Related to Shuttle Safety Oversight Responsibilities

The SFOC requires that NASA provide day-to-day management of USA’s safety operations
until that responsibility is transitioned (as agreed to by NASA) to USA, as documented in the
SFOC statement of work, Transition Plan,12 and Management Plan.13

The SFOC statement of work requires that:

                 The contractor shall develop a plan, including schedule, that demonstrates
                 and measures the transition from the existing contractor/government
                 relationship and responsibilities to the contractor’s planned approach to
                 safety and mission assurance for this contract.

The SFOC Transition Plan describes the nature of the responsibilities that are to be
transitioned from NASA to USA, stating, “NASA will move from an inspection role (review
and approval) to one of insight (audit and surveillance).”

In addition, the SFOC Management Plan, which is the most current document on SFOC
management approaches, roles, and responsibilities, indicates that NASA should provide day-
to-day management of USA’s safety process until NASA transitions that responsibility to
USA. Paragraph 1.2.1 of the Management Plan defines the level of oversight required of
NASA as follows:




12
   The SFOC Transition Plan, Attachment J-A of the SFOC, describes USA’s proposed plan for assuming
the responsibilities documented in the SFOC statement of work. Specifically, Section 2.0 of the plan
describes the generic approach that all USA organizations use to plan and execute transition of NASA tasks
to USA.
13
   Paragraph 1.1.1.1 of the SFOC requires USA to provide and maintain a management plan. The SFOC
Contracting Officer’s Technical Representative approved the Management Plan. Revision A of the
Management Plan, dated February 2001, acknowledges that many operations have already transitioned
from NASA to USA; however, safety was not one of the transitioned operations.



                                                     2
                 NASA’s operations management role will shift from “oversight” defined as
                 day-to-day management of work, to “insight,” defined as audit and
                 surveillance of work to a level of detail that provides assurance of
                 satisfactory work accomplishment.

The SFOC Transition Plan states that the SSP safety responsibility will be transitioned to
USA by October 1998. However, the SSP Safety Manager stated that USA was not
capable of being fully responsible for safety and, therefore, did not transition safety
oversight responsibilities to USA. Additionally, USA has not submitted an updated
transition plan. As a result, the Transition Plan continues to define NASA’s oversight
role as one of review and approval of USA’s safety operations. Similarly, the February
2001 Management Plan does not acknowledge that responsibility for safety was
transitioned to USA.

In accordance with the SFOC safety provisions, NASA’s responsibilities for ensuring that
USA implements all SSP safety requirements should consist of day-to-day management,
review, and approval of USA’s work. The SFOC Contracting Officer delegated the
responsibility for safety oversight of USA to the SSP Safety Manager at Johnson who, in turn,
subdelegated insight responsibility to the Kennedy TMR’s for ground operations and
attempted to subdelegate insight responsibilities to the TMR for integrated logistics.

Kennedy SSP Safety Procedures

Kennedy’s procedures to ensure that USA properly implemented SSP safety requirements for
ground operations and integrated logistics contradicted procedures defined in the SFOC.
Kennedy performed surveillance and audits of USA’s safety operations rather than day-to-day
management, review, and approval of USA’s work as defined in the SFOC. The Chief of the
Kennedy Shuttle Safety Office, the office that provided the safety support to the TMR for
ground operations,14 informed us that his office does not oversee day-to-day USA safety
operations or provide direction for the implementation of NASA’s safety requirements as
stated in the SFOC. Rather, the Kennedy Shuttle Safety Office gains insight into USA’s
safety operations through surveillance, audits, and the collection of metrics15 on the risks to
safety as required by the SSP Safety Manager’s subdelegation.

SSP Manager’s Direction for Safety Responsibilities at Kennedy

The SFOC safety requirements and Kennedy’s safety procedures differed because the SSP
Safety Manager defined oversight to mean that NASA is responsible for establishing the
safety requirements and directing USA to perform those requirements. Therefore, the SSP
Safety Manager directed the Kennedy TMR’s to perform surveillance and audits to ensure that
USA was implementing NASA safety requirements satisfactorily. This direction contradicted
the SFOC statement of work, Transition Plan, and Management Plan. Although the SSP


14
 The TMR for ground operations is the Deputy Director of the Shuttle Processing Directorate at Kennedy.
15
 The SFOC requires that USA maintain metrics, which are determined by risk assessments, Government
mandatory inspections, and mishap investigation reports.



                                                    3
Safety Manager’s definition of oversight differed from the SFOC definition, Johnson and
Kennedy officials made no effort to ensure that the SFOC and the SSP Safety Manager’s
practice for safety oversight were in agreement.

Effects of Contradictions in Safety Responsibilities

By using safety oversight procedures that contradicted SFOC requirements, NASA
weakened the overall SSP safety management control environment,16 resulting in a
potential lack of responsibility and accountability in the event of a serious mishap.
Without strict adherence to contractual requirements, line safety personnel could be
confused about their responsibilities, resulting in lapses in safety oversight. Further, the
SFOC makes NASA fully accountable for harm to personnel and damage to SSP assets in
the event of a serious mishap.

Recommendation, Management’s Response, and Evaluation of
Management’s Response
1. The Director, Lyndon B. Johnson Space Center, should direct the SFOC Contracting
Officer and the SSP Safety Manager to ensure that NASA and USA safety personnel
comply with the SFOC safety requirements or modify the SFOC, including the
Management Plan and Transition Plan, to accurately reflect the actual safety practices
and responsibilities NASA and USA perform.

Management’s Response. Nonconcur. NASA stated that Agency policy, Center
Directives, and SSP requirements establish safety responsibilities and processes; whereas
the SFOC established the performance standards associated with implementing specific
SSP tasks. Therefore, it is inappropriate for the Johnson Director to direct NASA safety
personnel to perform tasks associated with the SFOC. However, to meet the intent of the
recommendation, Kennedy and the SSP Office will verify that the appropriate Kennedy
organizations are complying with NASA oversight requirements. The complete text of
management’s response is in Appendix F.

Evaluation of Management’s Response. The SFOC, which references all NASA
policy, Center Directives, and SSP requirements, is a binding agreement between USA
and NASA and, as such, it should accurately reflect actual practices to be performed by
both parties. Having a contract document that directly contradicts actual practices could
result in a lack of responsibility and accountability in the event of a serious mishap. As
stated in the report, without strict adherence to contractual requirements, line safety
personnel could be confused about their responsibilities, resulting in lapses in safety
oversight. Although NASA nonconcurred with the recommendation, management’s
planned action to verify that the appropriate Kennedy organizations are complying with
16
   The General Accounting Office’s, “Standards for Internal Controls in the Federal Government,”
November 1999, define the control environment as the environment throughout an organization that sets a
positive and supportive attitude toward internal control and conscientious management. Specifically, the
standards require that appropriate authority, responsibility, and accountability be defined and delegated to
accomplish the agency’s mission.



                                                      4
NASA oversight requirements is responsive to the recommendation. As part of its
assessment, management should ensure that the SFOC requirements and actual practices
are in agreement. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                          5
Finding B. Safety of Shuttle Integrated Logistics
Kennedy had not ensured that USA implemented all safety requirements for the SSP
integrated logistics function.17 Specifically, Kennedy performed no oversight of
integrated logistics as required by the SFOC. This occurred because the TMR for
integrated logistics at Kennedy18 refused to accept the subdelegated safety responsibilities
because she did not feel qualified, and SSP officials did not take appropriate action to
ensure that a qualified individual was accountable for integrated logistics safety at
Kennedy. As a result, NASA had reduced assurance that personnel, space flight
hardware, and other equipment were adequately protected in a high-risk area of the SSP.

SFOC Requirements for Contractor Surveillance

The SFOC allows the NASA Contracting Officer to appoint one or more TMR’s to monitor
specified work areas. Under this authority, the Contracting Officer appointed a total of 13
TMR’s and assigned specific contract responsibilities to each through a formal delegation
letter. The delegation letter requires the TMR to:
                 Establish . . . a surveillance plan that will ensure receipt of the quantity
                 and kinds of supplies or services required by the Statement of Work of
                 the contract. The surveillance plan shall include, but not be limited to,
                 identification of how the contractor will be evaluated against the
                 metrics identified in attachment J-1-B of the contract.

One of the specific work areas was integrated logistics at Kennedy, which the SFOC
Contracting Officer assigned to a TMR. Integrated logistics consists of repairs,
maintenance, spare parts, warehousing for the Space Shuttle orbiters, and GSE. The SSP
Safety Manager, through authorization by the SFOC Contracting Officer, subdelegates
the responsibilities for surveillance and audit of USA’s safety operations at the Centers to
the appropriate TMR’s by way of NASA Form 1430, “Letter of Contract Administration
Delegation.” Acceptance of the delegation is documented by NASA Form 1431, “Letter
of Acceptance of Contract Administration Delegation.” Appendix C lists the
responsibilities specified in the subdelegation.

Safety Reviews of Kennedy Integrated Logistics

The TMR did not prepare and maintain an integrated logistics safety surveillance plan or
annual audit schedule and did not perform the required surveillance or audits of USA’s
integrated logistics safety activities as specified in the SSP Safety Manager’s intended
subdelegation. The Kennedy Shuttle Safety Office prepared a general Shuttle Safety and
Mission Assurance Surveillance Plan; however, the plan did not cover any specific



17
   As described in Finding A, there were discrepancies between the level of oversight required by the SFOC
and the safety insight that Kennedy performed.
18
   The TMR for integrated logistics is the Director of the Logistics Division within Kennedy’s Shuttle
Processing Directorate.



                                                      6
integrated logistics operations. Similarly, the Kennedy Shuttle Safety Office prepared an
annual Shuttle Safety and Mission Assurance audit schedule but had not planned or
performed audits in the integrated logistics area.

Integrated Logistics Safety Subdelegation

The lack of safety surveillance and audits of USA’s safety processes in the integrated
logistics area occurred because there was no NASA official in charge of subdelegated
safety responsibilities in the area. Although the SSP Safety Manager subdelegated safety
responsibilities to the integrated logistics TMR, she never accepted the subdelegation.
The TMR informed us that she refused to accept the subdelegation because she was not
qualified to evaluate USA’s safety procedures and, therefore, would not accept the
responsibility.

The SFOC Contracting Officer, SSP Safety Manager, and Kennedy Shuttle Processing
officials acknowledged that the TMR for integrated logistics had not accepted the safety
subdelegation. The SSP Safety Manager issued the subdelegation in May 1999 (more
than 2 years prior to our audit), and neither the SSP nor Kennedy Shuttle Processing
Directorate officials took actions to ensure that a qualified individual was accountable for
integrated logistics safety at Kennedy. As a result of our audit, the SSP Safety Manager
revised the letter of delegation, and the Kennedy Deputy Director for Shuttle Processing
agreed to accept the subdelegated responsibilities.

Integrated Logistics Hazards

The integrated logistics function covers critical Space Shuttle hardware such as the
orbiter vehicles and GSE and includes repairs, manufacturing, transportation, and
warehousing operations, which have a higher potential for injuries and mishaps. Prior to
our audit, NASA performed no oversight or insight of USA’s Space Shuttle integrated
logistics operations and, therefore, NASA had no assurance that personnel, space flight
hardware, and other equipment were adequately protected in a high-risk area of the SSP.

Recommendation, Management’s Response, and Evaluation of
Management’s Response

2. The Director, Lyndon B. Johnson Space Center, should direct the SSP Safety
Manager to subdelegate to a qualified NASA official the responsibility to ensure that
USA implements all NASA safety requirements for integrated logistics at Kennedy and
to ensure that those subdelegated responsibilities are accepted and implemented.

Management’s Response. Concur. The Shuttle Safety Manager subdelegated SFOC safety
insight responsibilities for both ground operations and integrated logistics to the Kennedy
Shuttle Processing Directorate who has accepted and implemented the subdelegation
(see Appendix F).




                                             7
Evaluation of Management’s Response. On May 28, 2002, NASA provided us a copy of
the signed NASA Form 1431, “Letter of Acceptance of Contract Administration Delegation.”
We consider the action sufficient to disposition the recommendation, which will be closed for
reporting purposes.




                                              8
Finding C. Shuttle Ground Support Equipment Safety Analyses
USA improperly used critical GSE19 for critical Space Shuttle operations before the
completion of required safety analyses20 and without adequate safety procedures to ensure the
safe use of the GSE pending the completion of the analyses. The questioned GSE included
monitors designed to alert personnel to an oxygen-deficient environment, cranes for hoisting
critical solid rocket booster components, a ground coolant system that monitors the
environment of the Space Shuttle crew compartment, transporters for moving the Space
Shuttle to and from the launch pads, platforms for lifting personnel, and a fire extinguishing
system. Improper GSE use occurred because of insufficient USA and NASA management
control over USA’s System Assurance Analysis (SAA)21 process to ensure that USA
implemented all NASA requirements for safety analyses. Using GSE for which all possible
hazards had not been identified and controlled may have increased the safety risks to
personnel and Shuttle hardware.

NASA Requirements for Safety Analyses

NASA has several requirements22 governing the performance of GSE safety analyses.
Those requirements generally state that USA should perform safety analyses to identify
and control hazards associated with new GSE or hazards that may be introduced into the
GSE through a modification. Sound safety practices require that personnel implement
sufficient interim safety procedures (such as installing special safety devices or safety
warnings) for the use of any GSE before completing a safety analysis. USA documents
its safety analyses in the SAA. USA’s engineering community, including USA’s Safety
and Reliability Engineering Division, Ground Systems Design Engineering Division, and
Systems Engineering Division, review and approve the SAA’s.

The TMR for ground operations was responsible (by subdelegation from the SSP Safety
Manager) for the performance of surveillance and audit of USA’s operations to ensure
that USA met all NASA requirements for safety analyses. The Kennedy Shuttle Safety
Office supported the TMR by performing the surveillance and audits.



19
   A GSE system is considered critical if loss of overall system function or improper performance of a
system function could result in loss of life, loss of an orbiter vehicle, or damage to a vehicle system. An
operation is considered critical if significant hazards are present to personnel, space flight hardware, or
space flight hardware systems.
20
   The required analyses were (1) Hazard Analyses and (2) Failure Modes and Effects Analyses.
21
   An SAA includes a system description, ground rules/assumptions, criticality assessment, Failure Modes
and Effects Analysis/Critical Items List, and Hazard Analysis. Collectively, the analyses included in the
SAA are intended to identify the necessary actions to eliminate or control any failures or malfunctions of
GSE that could independently or collectively present a hazard.
22
   Requirements are in NASA Space Transportation System 22206, "Requirements for Preparation and
Approval of Failure Modes and Effects Analysis and Critical Items List"; NASA Space Transportation
System 5300.4 (1D-2), “Safety, Reliability, Maintainability, and Quality Provisions for the Space Shuttle
Program”; Kennedy Program Directive 8710.1, “KSC/Safety, Reliability, Maintainability and Quality
Assurance Programs”; and the SFOC Safety and Health Plan.



                                                     9
Critical GSE Undergoing Analysis

USA’s Reliability Engineering Division provided us a list of the critical GSE systems23 for
which SAA’s were in process as of October 1, 2001. The list consisted of 101 GSE systems.
From that population, we reviewed 11 (11 percent) critical GSE systems to determine whether
USA used the GSE properly and safely in critical and noncritical operations. We found that
USA used 6 (55 percent) of the 11 GSE systems, comprising 10 items of GSE, prior to
completion of safety analyses and without interim safety procedures governing the use of the
GSE before completion of the SAA. USA had completed SAA’s for the remaining five GSE
systems we reviewed; however, the analyses should have been updated as a result of
modifications to the equipment or a change in equipment use. A detailed description of our
review is in Appendix D.

SAA Management Controls

The use of critical GSE prior to the completion of required SAA’s occurred because of
insufficient USA and NASA management controls over the SAA process. Although USA
had procedures regarding when and how to perform SAA’s, USA had not established
procedures (such as implementing special safety guards or warnings) to ensure the safe use of
GSE in critical operations pending the completion of an SAA. Instead, USA relied on the
institutional knowledge of the technicians and system engineers to ensure the safe use of the
GSE. Kennedy Shuttle Safety Office personnel were familiar with the SAA process and
stated that USA should have procedures to ensure the safe use of GSE in critical operations
prior to completion of SAA’s. However, we found no evidence that the Kennedy Shuttle
Safety Office reviewed USA’s procedures for using the GSE or reviewed the corresponding
SAA’s that we sampled.

Kennedy Shuttle Safety officials acknowledged the need for increased attention to USA’s
processes for implementing requirements related to the approval and use of GSE in critical
applications. As a result of our audit, the Shuttle Processing Directorate intends to review
USA’s processes for managing new and modified equipment.

Effects of Using Ground Support Equipment Prior to Completion of an Analysis

By allowing the use of critical GSE in critical operations prior to the completion of SAA’s,
NASA and USA lacked assurance that all possible hazards were adequately identified and
properly controlled. Without such assurance, the safety risks to personnel, critical items of
Space Shuttle hardware, and other equipment were potentially increased. The 10 GSE items
in our sample consisted of 2 oxygen deficiency monitors, 2 overhead bridge cranes, a ground
coolant system, 2 crawler transporters, 2 mobile manlift platforms, and a fire extinguishing
system.

USA’s Lead Reliability Engineer told us that USA’s use of the oxygen deficiency monitors
was a problem and that USA would take immediate corrective action. However, he was
23
   A GSE system can consist of one or several items of GSE. For example, the Space Shuttle crawler
transporters are listed as one system but consist of two crawlers.



                                                   10
confident that the other items of GSE were used safely, even though the use of the items was
not supported by current SAA’s, interim safety procedures, or safety office approval. The
risks associated with using the items of GSE in question are significant and warrant the
implementation of interim safe operating procedures to ensure that the GSE is safe to use prior
to the completion of SAA’s, as discussed below:

Sensitive information and corresponding footnotes 24, 25 and 26omitted**




24
   **Sensitive information omitted**
25
   **Sensitive information omitted**
26
   **Sensitive information omitted**



                                              11
**Sensitive information and corresponding footnotes 27 and 28omitted**




Conclusion

Each item of questioned GSE is critical because failure of the system could be hazardous
to personnel, space flight hardware, or other items of GSE. Using the GSE without
identifying all potential hazards increases the risk of those hazards. Further, because we
questioned the use of unanalyzed GSE based on only an 11-percent sample of 101 GSE
items, the magnitude of the problem could be even greater. Until USA completes the
SAA’s, it should have adequate interim safety procedures in place to ensure the safe use
of each item of GSE.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

The Director, John F. Kennedy Space Center, should:

       3. Direct the Kennedy Shuttle Processing Directorate to review USA’s processes
for implementing SSP requirements related to the approval and use of GSE in critical
applications. The assessment should include reviewing USA’s SAA’s to ensure GSE is
used properly.

27
     **Sensitive information omitted**
28
     **Sensitive information omitted**



                                            12
Management’s Response. Concur. NASA will complete an internal assessment of USA
implementation of SSP requirements related to the approval and use of GSE in critical
applications (see Appendix F).

Evaluation of Management’s Response. Management’s planned action is responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
for reporting purposes until the corrective action is completed.

        4. Direct the Kennedy Shuttle Processing Directorate to review the 101
critical GSE systems for which SAA’s are in process and either approve or suspend
USA’s continued use of the systems pending completion of the SAA’s.

Management’s Response. Partially concur. The report makes an erroneous conclusion
that if an SAA is in process, then the GSE or GSE system cannot be used in operations.
Management reviewed the 101 critical GSE systems for which SAA’s were in process
and found that 57 of the SAA’s were for either systems that were in the design phase or
modifications that had not yet been implemented, and 2 of the systems were not in use.
Based on the same review, management also removed two systems from use until the
appropriate analysis and precautions are in place. In conjunction with the corrective
action associated with recommendation 3, NASA will finish the assessment of the
remaining critical GSE systems for proper implementation of safety requirements (see
Appendix F).

Evaluation of Management’s Response. The OIG recognizes that, in certain circumstances
and by implementing appropriate safety precautions, GSE systems can be used safely prior to
completion of the SAA. However, as stated in the report, our review of a sample of 11 critical
GSE systems undergoing analysis showed no evidence of appropriate safety precautions for 6
(55 percent) of the systems, even though those systems were in routine use. According to the
GSE documentation, the revised SAA’s were required because modifications to the systems or
systems’ intended use affected safety. Accordingly, we believe interim safety precautions
should have been in place to ensure the safe use of the GSE prior to completion of the
analyses. As management found during its review of the 101 critical GSE systems, there was
a lack of control over the safe use of modified GSE systems for which SAA’s were in
progress. This was evidenced by NASA’s decision to remove two systems from service until
the appropriate analyses and precautions are in place. Although NASA partially concurred
with the recommendation, its planned action to review the remaining questioned GSE systems
is responsive. The recommendation is resolved but will remain undispositioned and open for
reporting purposes until the corrective action is completed.




                                             13
Finding D. Safety Procedures for Payload Installation and Removal
USA did not have adequate evidence to show that it had performed several required safety
procedures for the removal of a payload from an orbiter vehicle in Kennedy’s Orbiter
Processing Facility. This condition occurred because the Kennedy Shuttle Safety Office did
not review USA’s procedures to ensure USA performed and documented all required payload
installation and removal safety procedures. Nonperformance of safety procedures increases
the risk of harm or damage to personnel, space flight hardware, and other equipment related to
hazardous operations.

SFOC Safety Requirements

The SFOC statement of work, Section 1.3.1 states, “The contractor shall develop
documented and auditable approaches to achieve safe program operations and assure
flight safety.” USA documents its safety approaches at Kennedy in its Ground Safety
Operating Procedures 5400 document.29 The purpose of Ground Safety Operating
Procedures 5400 is to specify and establish safety policies and procedures required during
operations and maintenance activities at USA-designated areas of Kennedy. Volume II
of the document describes USA’s 77 Safety Operating Procedures (SFOP’s)30 that govern
the safety procedures required in key operations USA performs at Kennedy under the
SFOC. According to USA and Kennedy safety personnel, the specific safety procedures
for each SSP operation should be documented in various work authorization documents31
(see Appendix E).

The SFOC safety subdelegation requires the Kennedy Shuttle Safety Office to perform
surveillance and audits of USA’s safety activities to ensure safe operations at Kennedy’s
Space Shuttle processing facilities.

SFOP 33, “Payloads Installation/Removal in the Orbiter Processing Facility”

We reviewed32 SFOP 33, “Payloads Installation/Removal in the Orbiter Processing Facility,”
for a payload removal that occurred in May 2001. The payload removal operation was a
hazardous operation because it involved hoisting and moving large pieces of space flight
hardware up, over, and around personnel and the Space Shuttle orbiters. The photographs that
follow show a similar operation that we observed:



29
   Ground Safety Operating Procedures 5400 is incorporated into the SFOC by reference.
30
   The 77 SFOP’s are the primary processes used in preparing the Space Shuttle for launch. They consist of
such operations as mating the orbiter to the external tank and solid rocket boosters and transferring the
vehicle to the launch pad.
31
   Work authorization documents are the detailed instructions, including safety procedures, that direct
USA’s work and the work of its subcontractors in the performance of SFOC operations.
32
   We selected an SFOP that was well documented, recently performed, and involved work relating to the
Space Shuttle orbiters. USA safety officials agreed that SFOP 33 would be representative of the type of
work performed by USA and the Kennedy Shuttle Safety office in support of the SFOC and that an audit
trail of documented safety procedures could be easily followed.



                                                   14
Payload lifting and removal operation33



The SFOP specifies the support, safety equipment, safety instructions, responsibilities, and
emergency procedures to be followed during tasks and operations involved in payload
installation and removal from the Space Shuttle orbiter vehicles while in the Orbiter
Processing Facility. USA safety personnel told us that a review of the top-level work
authorization documents34 would illustrate and provide sufficient evidence of work performed
in satisfaction of the SFOP and that most activities specified in the procedure would be easily
traced to the actual work authorization documents that contained sign-offs and/or stamps by
the individuals who performed or witnessed the work. We reviewed the work authorization
documents and other supporting documentation pertaining to the removal and transportation
of the May 2001 payload removal (International Space Station Multi-Purpose Logistics
Module) from Orbiter Vehicle 105 and found no evidence that USA or NASA performed
several required safety procedures.

Evidence Of Required Safety Procedures

We found no evidence that either USA or NASA had performed several required safety
procedures for the May 2001 payload removal. Specifically, we determined the
following:

33
     **Detailed description of photograph omitted**




34
  USA stated that work authorization documents S0065.002-B01-R01 (S0065) and N52100-A01-R01
(N52100) are the top-level documents that control payload removal in the Orbiter Processing Facility. In
addition, we reviewed two lower-level Boeing subcontracting work authorization documents (L5050 and
L5051) that supported the operation.



                                                      15
•     There was no evidence that USA performed some critical safety procedures
      required by SFOP 33. The procedures were to verify that (1) personnel were
      certified for tasks as required; (2) safety showers and eyewash fountains were
      operational; (3) all hoisting and handling equipment had current certification and
      preoperational checks had been performed; (4) fire detection, suppression, and
      alarm systems were operational; (5) tag lines35 were used to control the load; (6)
      operations would be immediately terminated if communications were lost and
      would not recommence until communications were restored; and (7) the crane
      ground controller had sole responsibility for communications with crane operators
      during crane operation.

•     USA documentation required by the SFOC was inadequate to show the NASA or
      USA Safety Office involvement required by SFOP 33 for some of the activities
      specified in the work authorization documents. The work authorization documents
      require USA safety office support, but do not clearly state or document what
      support was provided. Also, one of the top-level work authorization documents
      (N52100) states that hazardous operations cannot commence until a safety official
      has given concurrence, evidenced by that safety official’s signature. Although we
      identified USA safety personnel signatures within the work authorization
      documents, we could not associate the signatures with any specific activity.

•     The work authorization documents were inconsistent regarding essential personnel,
      that is, those whose presence was deemed critical during the operation.
      Specifically, the Operations Support Setup and the Post Operation Instructions
      sections of S0065 specify that NASA representatives, including safety office
      personnel, are essential personnel. In fact, the Operations Instruction section
      specifies that at least one NASA safety engineer is essential at Level 13,36 whereas
      N52100 states that a NASA safety representative is not essential at Level 13. None
      of the work authorization documents indicated whether the personnel considered
      essential during certain phases of the operation were, in fact, present.

•     Some specific safety procedures described in the work authorization documents were
      not in SFOP 33, indicating that SFOP 33 may need updating. For example, one
      top-level work authorization document (S0065) states that during the pre-operation
      safety walkdown, safety representatives are to look for flammable or static-
      producing materials in the control area. This procedure was not included in the
      SFOP.




35
  Tag lines are ropes or wires used by ground personnel to guide the movement of the hoisted payload.
36
  Level 13 is comprised of the highest level of access platforms surrounding the orbiter as it undergoes
processing and checkout activities in the Orbiter Processing Facility. In addition to providing access to the
orbiter, Level 13 is used for observation of activities.



                                                     16
NASA Review of USA SFOP’s

The Kennedy Shuttle Safety Office did not review USA’s operations to ensure that its
payload installation and removal safety procedures were properly followed and
documented. The SFOC safety subdelegation requires the Kennedy Shuttle Safety Office
to perform surveillance and audits of USA’s safety activities to ensure safe operations at
Kennedy’s Space Shuttle processing facilities. The Chief of the Kennedy Shuttle Safety
Office informed us that his office performed a proactive safety role by developing safety
procedures for work authorization documents that USA must follow when performing
SFOC operations, such as removing a payload from an orbiter. The Chief further stated
that Kennedy Shuttle Safety Office personnel are present during high-risk operations,
such as those involving moving large pieces of space flight hardware, and are available in
case of an emergency. However, he stated that our audit approach of evaluating USA’s
safety operations by reviewing one particular operation and ensuring that USA performed
and documented all required safety steps was unique and that neither the NASA Shuttle
Safety Office nor USA have performed reviews in that manner.

In addition, the Chief of the Kennedy Shuttle Safety Office told us that Ground Safety
Operating Procedures 5400 and the corresponding SFOP’s were originally NASA
requirements. However, under performance-based contracting, USA assumed
responsibility for the documents and, over the years, USA drifted away from properly
performing and documenting all the procedures outlined in the SFOP’s. The Chief
agreed that all required safety steps must be performed and properly documented and that
he would take action to ensure that USA initiated corrective action.

Risks Involved in Payload Removal and Installation

Our review of the operation and all associated documentation (SFOP 33 and the work
authorization documents) disclosed no evidence that USA personnel performed some critical
safety procedures, including (1) ensuring that all hoisting and handling equipment had current
certifications and (2) performing all pre-operational checks. Further, the Kennedy Shuttle
Safety Office did not ensure that USA performed and adequately documented its safety
procedures. By not performing and documenting all required safety procedures and by not
performing adequate oversight, USA and the Kennedy Shuttle Safety Office, respectively,
increased the risk to personnel and space flight hardware. NASA and USA should ensure that
all required safety procedures are performed for hazardous SSP operations and that complete
documentation exists as evidence of those safety procedures.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

The Director, John F. Kennedy Space Center, should:

       5. Require USA to ensure that all the safety procedures defined in SFOP 33 are
properly implemented and documented for all future payload installation and removal
procedures at Kennedy.


                                              17
Management’s Response. Nonconcur. NASA did not concur because there is no
requirement for all SFOP 33 requirements to be documented within the work
authorization documents. The Kennedy Shuttle Processing Directorate will verify that
payload installation and removal procedures at Kennedy are accomplished in accordance
with requirements (see Appendix F).

Evaluation of Management’s Response. We are aware that there is no requirement for
documenting all SFOP’s in the work authorization documents. However, the SFOC statement
of work, Section 1.3.1 states, “The contractor shall develop documented and auditable
approaches to achieve safe program operations and assure flight safety.” We interpreted this
contract requirement to mean that there would be a clear traceability from USA’s written
safety procedures to evidence that the procedure was actually performed. USA safety officials
agreed with that interpretation and told us that SFOP 33 would be representative of the type of
work performed by USA and the Kennedy Shuttle Safety office in support of the SFOC and
that evidence of all required safety procedures could be found in the associated work
authorization documents. We could not find that evidence or determine whether NASA and
USA performed specific safety procedures and, if they had performed the procedures, a record
to document the work performed was not readily available.

The intent of our recommendation was to ensure that USA provides a clear traceability of
work performed to assure safe operations and SSP flight safety. Management’s planned
action to verify that payload installation and removal operations are accomplished in
accordance with NASA requirements meets the intent of our recommendation provided that
there is documented evidence of the work performed. Therefore, the recommendation is
resolved but will remain undispositioned and open for reporting purposes until the corrective
action is completed.

        6. Direct USA to determine whether SFOP 33 should be updated to include
safety procedures that are specified in the work authorization documents but are not in
the SFOP, and to update it as deemed necessary.

Management’s Response. Partially concur. NASA stated that the SFOP requirements
are itemized in the work authorization documents and that having additional items in the
work authorization documents is acceptable and expected. The Kennedy Shuttle
Processing Directorate and USA have reviewed the referenced work authorization
documents and have determined that no update to SFOP 33 is required (see Appendix F).

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. We consider the action sufficient to disposition the recommendation, which
will be closed for reporting purposes.

        7. Direct the Kennedy Shuttle Safety Office to include audits in its annual audit
plan to ensure that USA performs all applicable SFOP requirements and properly
documents the corresponding work authorization documents.




                                              18
Management’s Response. Concur. The Kennedy Shuttle Safety Office will ensure that
SFOP requirement audits are incorporated into that office’s annual audit plans
(see Appendix F).

Evaluation of Management’s Response. NASA notified us on April 29, 2002, that the
Kennedy Shuttle Safety Office revised its annual audit schedule to include audits to ensure
that USA implements SFOP’s into USA work authorization documents. The audit is planned
for August 2002. The recommendation is resolved but will remain undispositioned and open
for reporting purposes until corrective actions are completed and we have verified that USA
has properly documented that all SFOP requirements have been completed.




                                            19
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to evaluate United Space Alliance’s (USA’s) safety
procedures for NASA's Space Flight Operations Contract (SFOC). The specific
objectives related to this report were to determine whether:

   •   safety responsibilities between USA and NASA were clearly defined and
   •   NASA performed effective oversight of USA’s safety program.

Scope and Methodology

To accomplish our objectives, we did the following:

   •   Discussed Space Shuttle Program safety with the NASA SFOC Contracting
       Officer, Administrative Contracting Officer, Contracting Officer’s Technical
       Representative and Safety and Mission Assurance Technical Management
       Representative, as well as safety personnel from the Lyndon B. Johnson Space
       Center (Johnson), John F. Kennedy Space Center (Kennedy), George C. Marshall
       Space Flight Center, and USA Safety and Mission Assurance offices.

   •   Reviewed the SFOC Management Plan, Transition Plan, Safety and Heath Plan,
       and several NASA Space Transportation System documents.

   •   Discussed with NASA and USA safety officials and staff from the USA
       Reliability Engineering Division the process for preparation of ground support
       equipment System Assurance Analyses.

   •   Reviewed Agencywide, Kennedy specific, and USA policies and procedures for
       System Assurance Analyses of ground support equipment.

   •   Judgmentally selected and reviewed a sample of 11 items (11 percent) from the
       101 items of Kennedy ground support equipment for which System Assurance
       Analyses were in process as of October 1, 2001.

   •   Judgmentally selected and reviewed a USA safety procedure and associated work
       authorization documents governing the removal of a payload from a Space Shuttle
       orbiter vehicle in the Kennedy Orbiter Processing Facility.

   •   Observed the removal of an International Space Station Multi-Purpose Logistics
       Module from Orbiter Vehicle 103.

We did not assess the reliability of computer-processed data because we did not rely on it
to achieve our audit objectives.



                                            20
                                                                         Appendix A

Management Controls Reviewed

We interviewed SFOC contracting, Space Shuttle Program, and USA safety personnel to
identify applicable management controls such as contract administration and oversight
responsibilities. We identified management control weaknesses as identified in the
findings section of this report.

Audit Field Work

We performed audit field work from June 2001 through January 2002 at NASA
Headquarters, Johnson, and Kennedy. We performed the audit in accordance with
generally accepted government auditing standards.




                                          21
                  Appendix B. Summary of Prior Audit Coverage

The NASA Office of Inspector General issued two prior audit reports related to USA
safety practices. (See www.hq.nasa.gov/office/oig/hq/issuedaudits.html for copies.)

“Controls Over the Use of Plastic Films, Foams, and Adhesive Tapes In and Around
the Space Shuttle Orbiter Vehicles,” Report Number IG-01-034, August 31, 2001.
John F. Kennedy Space Center (Kennedy) management acknowledged the safety risks of
not properly controlling the use of plastic films, foams, and adhesive tapes (PFA’s) in
NASA facilities and requires all such materials to be evaluated for flammability
resistance, electrostatic discharge rate, and hypergolic compatibility37 characteristics.
However, in and around the orbiter vehicles and other segments of the Space Shuttle,
United Space Alliance (USA) routinely used PFA’s for which those characteristics were
unknown. Neither the USA Safety Office nor the Kennedy Shuttle Safety Office had
approved the materials for use. Further, USA’s procedures for the safe handling and use
of PFA’s in and around the orbiter vehicles were not effective.

The lack of control over the use of PFA’s created a potential safety hazard to personnel,
the orbiter vehicles, and other flight hardware and equipment. We recommended that
Kennedy (1) clarify procedures for approving the use of unapproved PFA’s, (2) request
USA to reestablish its PFA’s testing requirements, (3) direct the Kennedy Shuttle Safety
Office to be more actively involved in the safe use of PFA’s, (4) develop a centralized list
of PFA’s approved for use in and around the Space Shuttle orbiter vehicles, and (5) direct
the Kennedy Shuttle Safety Office to perform assessments on the control and use of
PFA’s found in Kennedy Space Shuttle processing facilities. Kennedy concurred with
one recommendation, partially concurred with the remaining four, and has completed or
planned appropriate corrective actions.

“Space Shuttle Program Management Safety Observations,” Report Number
IG-01-017, March 23, 2001. We evaluated NASA’s oversight of USA’s safety program.
We identified several weaknesses pertaining to NASA's management control structure for
providing oversight of USA’s safety operations under the Space Flight Operations
Contract. Specifically, we found the following:

     •   the Lyndon B. Johnson Space Center (Johnson) Safety, Reliability, and Quality
         Assurance Office was not providing the required support to the Manager, Space
         Shuttle Program Safety and Mission Assurance for oversight of USA’s safety
         activities;

37
   Kennedy Handbook 1710.2, references the Kennedy Materials Sciences Division Intranet, which also
includes foams as materials that must pass the acceptance criteria. The basic requirements are:
Flammability resistance – the material should be self-extinguishing before 6 inches of the test sample is
consumed, should not drip flaming particles, and should not permit fire to propagate to another object.
Electrostatic discharge rate – the material cannot hold a charge of more than 350 volts, 5 seconds after
termination of the initial charge.
Hypergolic compatibility – the material should not have an extreme reaction such as discoloration or
temperature increase when exposed to hypergols (rocket fuel).



                                                     22
                                                                           Appendix B

   •   NASA’s contractor surveillance plans did not address all contract requirements
       for safety;

   •   USA had not updated its Management Plan commensurate with the changes to the
       contract; and

   •   USA could improve its reporting to NASA of close calls and mishaps.

We recommended that Johnson ensure that (1) surveillance plans address all contract
requirements for safety, (2) USA’s Space Flight Operations Contract Management Plan is
kept current, and (3) USA promptly and accurately reports all required close call and
mishap information to NASA’s reporting system. Johnson did not agree with all of the
findings, but concurred with the recommendations. NASA implemented corrective
actions to improve the overall management of safety for the Space Shuttle Program.




                                          23
        Appendix C. Safety Responsibilities Subdelegated to the
       Integrated Logistics Technical Management Representative

The Space Flight Operations Contract Contracting Officer’s Letter of Contract
Administration Delegation subdelegated the following duties to the Technical
Management Representative for integrated logistics at the John F. Kennedy Space Center:

• Perform surveillance and evaluation of contractor and associated
  subcontractor/supplier activities associated with risk management and safety,
  reliability, maintainability, and quality assurance as defined in the statement of work
  or program requirements.

• Gain real-time insight into activities at selected subcontractors. If delegation to other
  organizations is necessary, a strong framework of teamwork and regular
  communication should be developed and maintained.

• Manage the resources provided to perform the obligations of this delegation.

• Perform oversight of authorized subdelegated activities.

• Provide Safety and Mission Assurance evaluation and technical assessment of
  engineering change requests.

• Evaluate contract deliverable products for compliance and acceptability.

• Resolve Safety and Mission Assurance technical issues in conjunction with United
  Space Alliance managers as required to fully facilitate United Space Alliance
  performance.

• Prepare and maintain a Safety, Reliability, and Quality Assurance surveillance plan.
  This plan will outline the surveillance activity and information to be provided in
  support of the Safety and Mission Assurance Technical Management Representative.

• Recommend to the Space Shuttle Program Safety Manager any desired changes in
  contract scope and/or technical provisions with justification.

• Provide immediate notice of significant program problems or issues to the Space
  Shuttle Program Safety Manager.

• Provide performance evaluation with substantiated metrics to the Space Shuttle
  Program Safety Manager.

 • Prepare and submit an annual audit schedule to the Space Shuttle Program Safety
   Manager.




                                            24
** Details of sample review information omitted**




                                              25
** Details of sample review information omitted**




                                              26
                          Appendix E. Audit Trail of United Space Alliance
                                        Safety Procedures

     Space Flight
        erations
      Contract


The contract includes              Ground
Section J-01 Paragraph
                               Safety Operating
1.3 - Safety Mission
                               Procedures 5400
Assurance, and
Product Assurance, and
references Kennedy
Handbook 1710.2,            This document               77 USA* Safety
"Kennedy Safety             supplements Kennedy            Operating
Practices Handbook."        Handbook 1710.2
                                                          Procedures
                            and establishes safety
                            policies and procedures
                            for operations and        The procedures are
                            maintenance activities                                 Work
                                                      specified in USA's*
                            at USA*-run areas of                                Authorization
                                                      Ground Safety
                            Kennedy Space Center.     Operating                  Documents
                                                      Procedures,
                                                      5400, Revision D,
                                                      dated 11/15/00,        The documents direct       Actual Safety
                                                      including Safety       USA's* performance          Procedures
                                                      Operating Procedure    of authorized tasks,
                                                      33 -"Payloads          including safety
                                                      Installation/Removal   procedures, for a       USA* performs the
                                                      in the Orbiter         given operation. Once   safety procedures
                                                      Processing Facility"   USA has completed       during a given
                                                      (discussed in          the operation, the      operation as specified
                                                      Finding D of this      documents comprise      in the work
                                                      report).               the record of work      authorization
                                                                             performed.              documents. The
                                                                                                     procedures include
                                                                                                     obtaining NASA
                                                                                                     Safety Office
                                                                                                     concurrence,
                                                                                                     performing safety
                                                                                                     inspections, and
                                                                                                     ensuring personnel
                                                                                                     are properly trained
                                                                                                     and equipment is fit
                                                                                                     for use prior to the
                                                                                                     start of the operation.
* United Space Alliance




                                                           27
Appendix F. Management’s Response




               28
     Appendix F




29
Appendix F




             30
     Appendix F




                  **USA’s
                  process
                  information
                  omitted**




31
Appendix F




             32
                      Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/AB/Associate Deputy Administrator
HQ/B/Acting Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/Acting General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Acting Associate Administrator for Space Flight
HQ/Q/Associate Administrator for Safety and Mission Assurance
HQ/QS/Director, Safety and Risk Management Division

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center




                                        33
Appendix G

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         34
                    NASA Assistant Inspector General for Audits
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: NASA Oversight of United Space Alliance’s Safety Procedures at the
John F. Kennedy Space Center

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?
$     Excellent         $    Fair
$     Very Good         $    Poor
$     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   $   Congressional Staff                 $ Media
   $   NASA Employee                       $ Public Interest
   $   Private Citizen                     $ Other:
   $   Government:            Federal:          State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Sandra A. Massey, Program Director, Safety and Technology Audits

Karl M. Allen, Audit Program Manager

Rebecca L. Andrade, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager

Edith M. Hoggard, Program Assistant
